UNITED STATES GOVERNMENT                                    LIBRARY OF CONGRESS
Memorandum                                                    Office of the Inspector General


TO:            Donald L. Scott                                                 July 24, 2002
               Deputy Librarian

FROM:          Karl W. Schornagel
               Inspector General

SUBJECT:       Organizational Alignment of Library of Congress Internal
               University, Contracts Services, and Grants Management


Per your request, the Office of Inspector General considered the organizational alignment of the
Library of Congress Internal University (LCIU), Contracts Services, and grants management
functions to determine whether their current configuration optimizes effectiveness. In summary,
LCIU could function in its current organizational alignment, or the function could be performed
elsewhere within the Library without compromising its effectiveness. Contracts Services and
grants (and cooperative agreements) management should be consolidated and aligned
independently of existing enabling infrastructure components. Contracts Services and
grants/cooperative agreements (and most other infrastructure components) would be better placed
under a newly created senior-level position that focuses on administering the infrastructure
activities that support the Library's operations. The paragraphs below discuss the rationale for our
conclusions.

Library of Congress Internal University

To optimize effectiveness, the responsibility and authority of the Internal University, Human
Resources Services, the Training and Development Advisory Board, and the Library's
managers/supervisors must be clearly defined and focused on improving employee development
and providing learning opportunities. Once these are defined and focused, the Internal University
must be given adequate resources to perform assigned functions. We will soon issue an audit
report that addresses issues about LCIU's mission and management.

Contracts Services

Contracts Services should have organizational independence from other infrastructure
components and service units. Internal control is an integral component of an organization's
management and it provides reasonable assurance of effective and efficient operations, reliable
financial reporting, and compliance with applicable laws and regulations. An important aspect of
internal control is segregating duties so that no one person or component of an organization
handles all aspects of a transaction from beginning to end. This includes initiating acquisitions,
approving them, disbursing funds, and accounting. The greater the separation of these duties, the
stronger an organization's control environment. Please refer to the attached Standards for
Internal Control in the Federal Government, GAO, November 1999, page 9, paragraphs 2 and 3,
and page 14, paragraph 4.

Grant and Cooperative Agreement Management

Because of their similarities, grants and cooperative agreements and Contracts Services could be
handled by the same manager. Many other federal agencies successfully combine these functions.
The Library would have to recruit someone for this position, likely a GS-15.

Administering Infrastructure Support Activities

Consider appointing a senior-level manager. The manager would report to you and be responsible
for all infrastructure functions except perhaps Financial Services Directorate and Information
Technology Services. The position should be filled with a person whose expertise is in
management and administration and whose focus is on high quality service. The ability to work
well with others, effectively communicate, and manage projects are also important factors for this
position. Numerous federal agencies successfully employ such a senior manager for administration
of these important functions.

Often, infrastructure components report to an agency's CFO. In my experience, this structure is
more successful in larger agencies where the CFO does not handle the day-to-day management
of financial operations.

If you have any questions or would like to discuss these topics further, please let me know.


Attachment
